U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jake Laturner, Kansas State Treasurer v. United State of America, et al.
S.Ct. No. 19-1279

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 8, 2020,
and placed on the docket on May 12, 2020. The government's response is due on June 11, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 13, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1279
LATURNER, JAKE, KANSAS STATE TREASURER
USA, ET AL

DAVID C. FREDERICK
KELLOGG, HANSEN, TODD, FIDGEL &
FREDERICK, P.L.L.0
1615 M STREET, N.W.
SUITE 400
WASHINGTON, DC 20036
202-326-7900
DFREDERICK@KELLOGGHANSEN.COM

